No

W- 383

In The
Supreme Court of The United States
JOSEPH RAIMONDO, on behalf of
himself and all others similarly situated,
Petitioner
v.

DENISE PAGE HOOD, U.S. District Chief Judge,
U.S. Employee et al.
-----

FILED
SEP 09 20(9

Respondent(s)

SUPREEM(EFC1nii;R!?Li^K

On Petition For Writ Of Certiorari
To The United States Court Of Appeals For The
Eighth Circuit
CAPITAL
PETITION FOR WRIT OF CERTIORARI

Joseph Raimondo; Pro Se
P.O. Box 330
Armada, MI. 48005
586-405-5365
Pro se^ For The Court

1

Questions Presented
Questionl. Can the United States Federal
Government signal out citizens and demand
taxation and then deprive the citizens,
Constitutional Equal Protections because citizens
are Evangelical Christian’s, Conservative’s, or be
a Republican?
Question 2. Can Social Justice Sanction the U.S.
Constitution as means to war against; Evangelical
Christian’s, Conservative’s, and/or Republican’s
Equal Protection Rights, as a means to deprive
U.S. Constitutional Laws in the Courts?
Question 3. Can the Democrat National Committee
be sued if their usage of Social Justice Policy was
used as a means to deprive Constitutional Law, if it
can be shown, Social Justice was used and it
deprived Constitutional Protections under the law?

11

Petitioner
JOSEPH RAIMONDO

Respondent(s)
DENISE PAGE HOOD, U.S. District Chief
Judge, U.S. Employee et al.

LIST OF PARTIES
Denise Paige Hood, U.S. District Chief Judge, U.S.
Employee; Lawrence Paul Zatkoff, U.S. Employee;
George Caram Steeh, U.S. District Judge, U.S.
Employee; John Corbett O’Meara, U.S. District
Judge, U.S. Employee, Commissioner John
Koskinen, U.S. Employee; Carolyn Chiechi,
Federal Tax Judge, U.S. Employee; Macomb
County, a County of the State of MI; Lt. Lynn
Baumgarten, Employee of M/C MI; James
Meyerand, an Employee of M/C ML Village of
Armada, an incorporated MI Village! Ben Delecke,
an employee servant of the A/Village! Thomas
Meyers, Attorney in interest of A/Village; Capac
State Bank, John Doe, Democratic Nation
Committee; United States of America Individually
and in their official capacity, jointly & severally.

Ill

STATEMENT OF RELATED CASES
. Raimondo v. Vill. of Armada et al. No. 2:01-cv71353-DT (E.D) Mich. 2001
. Raimondo v. Vill. of Armada et al. No. 2:02-cv71696-DT (E.D) Mich. 2002
. Raimondo v. Fritz Builders et al. In. No. 2:03‘cv
71972 (E.D) Mich. 2003
. Raimondo v. State of Mich. Et al. No. 2:03‘cv
72991(E.D) Mich. 2003
. Raimondo v. Myers, et al No. 2:04-cv- 74287
(E.D) Mich. 2004
. Raimondo v. Hood et al. No. 5:06-cv15007(E.D) Mich. 2006
. Raimondo v. Hood et al. No. 2H0-cv15107(E.D) Mich. 2010
. Raimondo v. Armada, No. 2H2_cvl4773 (E.D.
Mich. 2013.

IV

TABLE OF CONTENTS
Page
QUESTIONS
PRESENTED.....................................
1
LIST OF PARTIES............................
11
SATEMENT OF RELATED CASES
111
TABLE OF CONTENTS.....
IV V Vll Vlll IX XI Xll
TABLE OF AUTHORITIES
XIV XV XVI XVII
OPINION BELOW..............
1
JURISDICTION..................
2
CONSTITUTIONAL PROVISIONS
INVOLVED.......................................
2-3
FEDERAL STATUTORYINVOLVED.....
3-4-5
INTRODUCTION.......................................
5
STATEMENT OF THE CASE..................
8
REASONS FOR GRANTING THE WRIT
43
CONCLUSION...........................................
43
I.

THIS
COURT
NEEDS
TO
CLAIRFY
STANDARDS PRO SE PARTIES BEFORE THE
COURT ARE TO BE HELD BY WHEN COURTS
ARE TO LIBERALLY CONSTRUED PRO SE
COMPLAINTS, THE WORDING IS AMBIGUOUS
THAT GIVES NO DIRECTION THE COURTS
MUST
ADHERE
TO
THE
U.S.
CONSTITUTION........
34,35,36

II.

THIS
COURT
NEEDS
TO
CLAIRFY
STANDARDS OF Justice Black in Conley v Gibson,
355 U.S. 41 AT 48 (1957) “The Federal Rules reject
the approach that pleadings are a game of skill in
which one misstep by counsel may be decisive to the
outcome and accept the principle that the purpose
of pleading is to facilitate a proper decision on the

V

TABLE OF CONTENTS
Page
Merits”

36

III.

THIS COURT SHOULD CLAIRFY WHETHER
RES JUDICATA AS IT’S RELIED UPON
DISMISSING CASE NO. NO 2:i7-cv-04254-NKL
COURTS
WITH
THIS
CONFLICTS
UNANIMOUSLY RULING IN Lawlor v. National
37
Screen Services Corp., 349 U.S. 322 (1955),

IV.

THIS COURT SHOULD CLAIRFY THE LEGAL
STANDARD 11 Charles Alan Wright & Arthur
R. Miller, Federal Practice & Procedure: Civil§
("Relief under Rule
2865 (3d ed. 2012)
..........................37,38,39
60(b).................................

V.

THIS COURT SHOULD CLAIRFY Tyson Timbs v
State of Indiana Supreme Court 586_1393.CT.682;
20 L ED.2d 11 2019 to Raimondo v Hood et al., Case
39
No. 2H7-CV- 04254

VI.

THIS COURT SHOULD CLAIRFY Curtis Giovanni
Flowers v Mississippi Supreme Court Case NO
17-9572; 2019 Case NO 17-647,588 U.S. 201 to
Raimondo v Hood et al., Case No. 2H7-cv.40
04254

VII.

THIS COURT SHOULD CLAIRAFY Rose Mary
Knick v Scott Township Pennsylvania Case NO
17-647,588 U.S. 2019 to Raimondo v Hood et al.,
40,41,42
Case No. 2U7-CV-04254

VIII.

THIS COURT NEEDS TO CLAIRFY STANDARDS
in Ackra Direct Marketing Corp., 86 F.3d at 857,
and therefore the decision is left to the "sound

VI

TABLE OF CONTENTS
Page
discretion" of the Court. F.T.C. v. Pack Brand
Meats, Inc. 562 F.2d 9, 10 (8th Cir.1977)...........

42,43

APPENDIX U.S. SUPREME COURT
APPENDEX A: Motion for Extension of Time for
filing Cert of Writ. July
8/2019:
la
APPENDIX B: United States Court of the United
States Grant Writ of Cert by Justice Gorsuch.
07/16/2019:
3a
APPENDEX C: United States Court of the United
States Notice List
5a
APPENDIX OF 8™ Cir

6a

Appendix D: Mandate by United State Court of
Appeals for the 8th Circuit:
05/24/2019:.................................................................. 6a
Appendix E: Ordered by United State Court of
Appeals for the 8th Circuit: Petition for rehearing
en banc is denied. The petition for rehearing by
panel is also denied:
05/16/2019:
8a

Vll

TABLE OF CONTENTS
Page
Appendix F: Ordered by United State Court of
Appeals for the 8th Circuit: that the judgment of the
District Court of summarily affirmed.
10a
02/20/2019:
Appendix G: Ordered by United State Court of
Appeals for the 8th Circuit: Motion to amend
petition for rehearing Granted:
04/17/2019:................................................................ 12a
Appendix H: Ordered by United State Court of
Appeals for the 8th Circuit: Requesting Electronic
format—Appendices not required:
14a
09/18/18
Appendix: I Notice letter for the United State Court
of Appeals for the 8th Circuit; No briefing schedule
will be established, and no additional pleadings are
required from you:
16a
09/18/18
APPENDIX OF THE DISTRICT COURT
Appendix J: United States Western District Court
of MO. Order concerning Pretrial Procedures for
action commenced by Pro se Plaintiff:
18a
03/23/18:

Vlll

TABLE OF CONTENTS
Page
Appendix K: United States Western District Court
of MO. Order to Dismiss, District Court Doc. 10,
Motion to Dismiss entered.
06/25/2018
21a
Appendix L: United States Western District Court
of MO. Order to Dismiss, District Court Doc. 13,
Motion to Dismiss entered,
06/25/2018
29a
Appendix M: United States Western District Court
of MO. Order to Dismiss, District Court Doc. 41,
entered,
08/7,2018
37a
Appendix N: United States Western District Court
of MO. Request for Reconsideration Doc. 67 Denied
for Doc, 57,58,59, entered
08/07/2018
50a
Appendix 0: United States Western District Court
of MO. Order denying Motion for default Doc. 47,
Denied, Doc, 51, Motion granted to dismiss entered
08/16/18:
59a
Appendix P: United States Western District Court
of MO. Judgement Order IN CIVIL CASE Doc. 57,

IX

TABLE OF CONTENTS
Page
58, 59, 41, 47 entered
08/21/18:......................

69a

Appendix Q: United States Western District Court
of MO. Response to order to show Cause for Doc.
[51] District Court Docket 68,
entered
72a
7/24/2018
Appendix R: United States Western District Court
of MO. Statement of the federal judge defendants
regarding proposed Default Judgement Doc. [51]
for Doc. [47] entered
77a
06/18/2018
Appendix S: United States Western District Court
of MO. Response Statement of the federal judges
defendants regarding proposed default judgement
Doc. [51]. For Doc. 69
96a
entered
Appendix T: United States Western District Court
of MO. DOC [69] REPLY STATEMENT OF
FEDERAL JUDGE DEFENDANTS REGARDING
PROPOSED DEFAULT JUDGEMENTS [51] DOC.
[47] Entered
120a
07/24/2018
Appendix U: United States Western District Court

X

TABLE OF CONTENTS
Page
of MO. Response Reply to Statement of the
FEDERAL JUDGE DEFENDANTS REGARDING
proposed Default Judgment re. 51 to Doc.
47dismissed, entered
07/25/2018
128a
Appendix V: United States Western District
Court of MO. Complaint Exhibit Supplemental
Index as a part of the District Courts official record
of Case No. 2G7-cv04254-NKL
entered
01/08/2018
140a
Appendix Original case;

2001

Appendix W: United States Western District Court
of MO. Macomb County Lt. AFFLDAVIT OF LYNN
BAUMGARTEN
Dated
4/Dec./05
144a
Appendix X: United States Western District Court
of MO. Macomb County official, AFFLDAVTT OF
JOHN HERTEL This day of October 2002, Noted
no date
entered
147a
Appendix Y: United States Western District Court
of MO. Macomb County official Corporate Counsel

XI

TABLE OF CONTENTS
Page
James Meyerand’s signed motion to dismiss or
summary
149a
judgement
Appendix Z: United States Western District Court
of MO. Macomb County Search Warrant issued on
April 3rd
161a
1998
Appendix 2-A: U.S. Justice Department
letter dated July 19th 2007........................

163a

Appendix 2-B: Federal Bureau of
Investigation letter response Dated
May 15 th
2007........................................................

164a

Appendix 2-C: Raimondo Brief filed in Dec 2010 in
civil 1st Amendment Case 2:i0-cv-15107 before
Judge
166a
Steeh
Appendix 2D: 7/10/2019 U.S. Attorney: Michigan
leads in public corruption cases / State/
201a
thenewsherald.com
Appendix: 2-E: United States Western District
Court of MO District Courts official
Case No. 2:17'cv04254-NKL Count 1

Xll

TABLE OF CONTENTS
Page
OBSTRUCTION OF JUSTICE BY Covering up a
Violated Search and Seizure Warrant entered
01/08/2018
205a
Appendix^ 2-F: United States Western District
Court of MO District Courts official
Case No. 2:i7-cv-04254-NKL Count 2 Conspiracy
Denying 1st Amendment Rights to Petition for
Redress entered
01/08/2018
209a
Appendix: 2‘G: United States Western District
Court of MO District Courts official Case No.
2:i7-cv04254-NKL Count 3 Conspiracy!
Denying 4th Amendment Due Process
entered
01/08/2018
212a
Appendix: 2‘H: United States Western District
Court of MO District Courts official
Case No. 2:l7-cv-04254-NKL Count 4
Conspiracy! Denying 5th Amendment Due Process
Clause entered
01/08/2018
215a
Appendix: 2L United States Western District
Court of MO District Courts official Case No.
2:i7-cv04254-NKL Count 5 Conspiracy Denying

Xlll

TABLE OF CONTENTS
Page
14th Amendment Due Process Clause entered
01/08/2018................................................................ 218a
Appendix^ 2-J: United States Western District
Court of MO District Courts official
Case No. 2:i7-cv-04254-NKL Count 6
Conspiracy! Denying Equal and Fair
Treatment of the Law. entered 01/08/2018....... 221a
Appendix: 2K: United States Western District
Court of MO District Courts official
Case No. 2:l7-cv04254-NKL Count 7
Conspiracy; Fraud Upon The Court,
entered
223a
01/08/2018
Appendix: 2-L: United States Western District
Court of MO District Courts official
Case No. 2:l7-cv04254-NKL Count 8
Conspiracy; Engaging in Social Justice
Policies entered
228a
01/08/2018
Appendix: 2-M: United States Western District
Court of MO District Courts official
Case No. 2:i7-cv04254-NKL Count 9
Conspiracy; Taxation With-out Federal
232a
Representation entered01/08/2018

XIV

TABLE OF CONTENTS
Page
Appendix: 2-N: United States Western District
Court of MO District Courts official
Case No. 2:l7-cv-04254-NKL Count 10
Conspiracy; Intentional Infliction of Emotional
Distress, entered
01/08/2018
238a
Appendix: 2,0: United States Western District
Court of MO District Courts official
Case No. 2:i7-cv04254-NKL Count 11
OBSTRUCTION OF JUSTICE BY Covering-up a
Violated Search and Seizure Warrant entered
01/08/2018
246a
Appendix: 2-P United States Western District
Court
of MO District Courts official record of Case No.
2:i7-cv-04254-NKL Complaint; Establishing the
Elements of Fraud upon the Court
249a
Appendix: 2-Q United States Western District
Court of MO District Courts official record of Case
No. 2:i7-cv04254-NKL Complaint, Complaint
Criminal
Conspiracy
250a
Appendix: 2-R United States Western District

XV

TABLE OF CONTENTS
Page
Court of MO District Courts official record
of Case No. 2:i7-cv-04254-NKL Complaint Claim
252a
for Relief.
Appendix: 2‘S United States Western District
Court of MO District Courts official record of Case
No. 2:i7-cv04254-NKL Compliant LEGAL
254a
ARGUMENT
Appendix: 2-T United States Western District
Courtof MO District Courts official record of Case
No. 2:i7-cv04254-NKL Compliant, CLAIM FOR
271a
RELIEF
Appendix: 2-U United States Western District
Courtof MO District Courts official record of Case
No. 2:l7-cv04254-NKL Compliant,
STIPULATION OF FACTS IN SUPPORT OF
277a
CLAIM FOR RELIEF

XVI

TABLE OF AUTHORITIES CITED
Page
Cases:
United States v. Williams, 341 U.S. 70, 72. 2
[383 U.S. 787, 790]............................................... 32,41
Tyson Timbs v State of Indiana Supreme Court
586_1393.CT.682; 203 L ED.2d 11 2019.............. 39
Rose Mary Knick v Scott Township Pennsylvania
Case NO 17-647,588 U.S. 2019
40
Curtis Giovanni Flowers v Mississippi Supreme
Court Case NO 17-9572;
2019
40,41,42
Flora v. United States 357 U.S.63 (1958)
No. 492 (U.S. Supreme Court)....................

12

Flora v. United States 246 F.2d 929 (1957) Case
No. 5502; (Tenth Circuit)......................................... 12
Flora v. United States 362 U.S. 145 (1960)
No. 492 (U.S. Supreme Court).......................
United States v Price (383 U.S. 787)
1966

13

22,32,37,41

United States v. Williams, 341 U.S. 70, 72. 2
[383 U.S. 787, 790]............................................... 32,41

XVII

TABLE OF AUTHORITIES CITED
Page
In Lawlor v. National Screen Services Corp., 349
14,42
U.S. 322 (1955)
People v Zajic, 88ill.APP.3d 477,410 N.E.2d626
(1980).......................................................................... 16
Bulloch v United States, 763 F.2d 1115, 1121
(10th Cir. 1985)
Kenner v. C.I.R., 387 F.3d 689 (1968); 7 Moores
Federal Practice, 2d ed., p. 512, ii60.23
The People of State of Illinois v Fred E. Sterling,
357III. 354; 192 N.E. 229 (1934).............................. 17
Allen F. Moore v Stanley f. Sievers, 336 III. 316:
168 N.E. 259 (1929).................................................... 17
In Village of Willowbrook, 37 III.App.2d 39
(1962)..................................................................

17

Dunhm v. Dunham, 57 III.App. 457 (1894),
affirmed 162 III. 589 (1896)............................

17

Skelly Oil Co. v. Universal oil Products Co., 338
III.App. 79, 86 N.E.2d 875, 883-4 (1949).............. 17

XV111

TABLE OF AUTHORITIES CITED
Page
Thomas Stasel v. The American Home Security
Corporation, 392 III. 350; 199 N.E. 798 (1935).... 17
American Home Security Corporation, 392 III. 350;
199 N.E. 798 (1935)
Liljeberg v. Health Services Acquisition Corp., 486
U.S. 847, 108 S. Ct. 2194
(1988)
16
Litekly v. U.S., 114 S.Ct.1147, 1162 (1994)

16

Haines v Kerner 92 Set 594, 914 F2d 1459 (11th Cir
1990)
41
Hulsey v Ownes 63 F3d 354 (5th Cir 1995)

41

Hall v Bellmon 935 F.2d 1106 (10TH Cir.
1991)..............................................................

41

Puckett v Cox, (456 F2d 233 (1972 6th Cir.
USCA).................................................................

41

Conley v Gibson, 355 U.S. 41 AT 48 (1957)
Liljeberg v. Health Services Acquisition Corp.,
486 U.S. 847, 108 S. Ct. 2194 (1988)

XIX

TABLE OF AUTHORITIES CITED
Page
United States v Balistrieri, 779F.2d 1191 (7th Cir.
16
1985)
Taylor v. O’Grady, 888 E.2d 1189 (7th Cir. 1989).16
Pfizer Inc. v Lord, 456 F-2d 532
(8th Cir.
1972)..............................................

16,17

Levine v. United States, 362 U.S. 610, 80 S Ct.
7,17,41,42
1038 (1960)
Citing Offutt v. United States, 348 U.S. 11, 14, 75,
S. Ct. 11, 13
7,17,41,42
(1954)
Taylor v. O’Grady, 888 F.2d 1189 (7th Cir.
7,17,41,42
1989)
United States v. Sciuto, 521 F.2d 842, 845, (7th
17,18,41
Cir. 1996)
Constitutional
4th Amendment

14,18,37

8th Amendment

14,39

14th Amendment

41

XX

TABLE OF AUTHORITIES CITED
Page
Statutes
18 U.S. Code sec. 981- Civil Forfeiture Law
42 U.S.C. 1983

14
39,41

18 U.S.C. 371

32

18 U.S.C. 242

32,41

18 U.S.C. 241

32,41

28 U.S.C. sec 455(a)

16

Other Authorities,
Judges Standard Rule 6-14

21

1
IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Joseph Raimondo, on behalf of himself and all
others similarly situated, respectfully petitions for
a writ of certiorari to review the judgement of the
United States Court of Appeals for the Eighth
Circuit in the Raimondo v. Denise Page Hood et al.,
Case No 18-2992.

OPINIONS BELOW
The Appendix for the Motion for Extension for
time to before the United States Supreme Court
filed 7/8/19, Granting Motion 07/16/19, and Notice
List is produced in the Appendix Index as App.la,
3a, & 5a on page vi.
The opinion of the United States court of appeals
COLLOTON,
SHEPHERD,
and
Before:
ERICKSON, Circuit Judges and from the 8th Cir.
Court are produced at Appendix index pages vi &
vii better detail in the Table of Contents to the
petition and are unknown as being published.
The orders, judgements, opinions, motions,
suggestions, replies, exhibits, including inserts
from the presented complaint before the United
States District Court in produced at Appendix
Table of Contents index pages, vii, viii, ix, x, xi, xii,

2
xiii, xiv,xv to the petition and are unknown as
being published presented in better detail in the
Table of Contents.

JURISDICTION
The date on which the United States Court of
Appeals decided my case was February 20/2019.
The date on which the United States Court of
Appeals entered mandate on my case was May
12/2019. A Petition & response to the Court was
timely filed in my case. The jurisdiction of this
Court is invoked under 28 U.S.C. sec 1254(l)
CONSTITUTIONAL PROVISIONS INVOLVED
1st Amendment
Congress shall make no law respecting an
establishment or religion, or prohibit the free
exercise thereof, or abridging the freedom of
speech, or of the press, or the right of the people
peaceably to assemble, and to petition the
government for redress of grievances.
4th Amendment
The right of people to be secure (safe) from
unreasonable searches and seizures (arrests or
taking of belongings)of themselves, their houses,
their papers and effects (other personal property)
cannot be violated . Warrants (written court orders)
for any of these purposes must be issued with good

3
cause, sworn to by an oath, and must describe, in
detail, the place to be searched and the persons or
things to be seized.
5th Amendment
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment
or indictment of a grand jury, except in cases
arising in the land or naval forces, or in the militia,
when in actual service in time of war or public
danger, nor shall any person be subject for the
same offense to be twice be put in jeopardy of life or
limb; nor shall be compelled in any criminal case to
be a witness against himself, nor be deprived of life,
liberty, or property, without due process of the law,
nor shall private property be taken for public use,
without just compensation.
6th Amendment
In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by an
impartial jury of the state and district wherein the
crime shall have been committed, which district
shall have been previously ascertained by law, and
to be preformed of the nature and cause of the
accusation; to be confronted with the witnesses
against him; to have compulsory process for
obtaining witnesses in his favor, and to have the
assistance of counsel for his defense.
7th Amendment
In suits at common law, where the value in
controversy shall exceed twenty dollars, the right of
trial by jury shall be preserved, and no fact tried by

4
a jury a jury, shall be otherwise reexamined in any
court of the United States, than according to rules
of common law.
8th Amendment
Taking Clause, Excessive bail shall not be
required, nor excessive fines imposed, nor cruel and
unusual punishment inflicted.
14th Amendment
All persons born or naturalized in the United
States and subject to the jurisdiction thereof, are
citizens of the United States and of the State
wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or
Immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or
property, without due process of the law; nor deny
to any person within its jurisdiction the equal
protection of the law.
STATUTE PROVISIONS INVOLVED
42 USC 1983
Every person who, under the color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or District of Columbia, subjects,
or causes to be subjected, any citizen of the United
States or person within the jurisdiction thereof to
deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be
liable to the party injured in an action at law, suit
in equity, or other proper proceeding for redress.

5
42 USC 1985
If two or more persons in any State or Territory
conspire or go in in disguise on public highway or
on the premises of another, for the purpose of
depriving, either directly or indirectly, any person
or class of persons of equal privileges and
immunities under the laws! or for the purpose of
preventing or hindering the constituted authorities
of any State or Territory from giving or securing to
all persons within such State or Territory the equal
protection of the laws; the party so injured or
deprived may have an action for the recovery of
damages occasioned by such injury or deprivation,
against any one or more of the conspirators.

42 USC 1988
The jurisdiction in civil and criminal matters
conferred on the district courts by the provisions of
title 13, 24, and 70 of revised Statute for the
protection of all persons in the United States in
their civil rights, and for vindication, shall be
exercised and enforced in conformity with the laws,
of the United States, so far as such laws of the
United States suitable to carry the same into effect.
FEDERAL STATUTES PROVISIONS
INVOLVED

18 U.S.C. 981- Civil Forfeiture Law
18 U.S.C. 371

Conspiracy to commit offense or to

6
defraud United States
18 U.S.C. 242 Deprivation of rights under color of
law
18 U.S.C. 241 Conspiracy against rights
28 U.S.C. 455(a) Disqualification of justice, judges ,
or magistrate judge.

STATEMENT OF THE CASE
Mr. Raimondo is not before the Honorable
Court with disrespecting the Courts. Courts are to
be respected. But with that said, Judges are to
respect as well, citizen’s rights. This case
originated from officers of the law disregarding
Court orders while violating a warrant on April 6th
1998. Judge Hood saw, Honest Mistakes.
The petition addresses, Judicial conduct of
Judge Hood, and Judge Chiechi. It would prejudice
Mr. Raimondo if I had to conceal truth and facts
because that would make me present my factual
story, political correct, and the facts and the truth
would then be suppressed when the Courts are
about hearing the truth, may the Heavens Fall.
This petition produces facts & truths, it’s not used
as a vendetta against either, Judge Hood, or Judge
Chiechi. I’m simply presenting facts, evidence
supports, so help me God. If the petition should be
considered far-fetched and unbelievable; The
complaint was not defended, it’s only a claim. The

7
complaint was supported by real evidence to the
lower court, now squashing such claim. That’s not
how civil cases work. I’m a person of value too as
are Respondent’s and law is to work for both sides.
Officers of the Court are grand standing before
the Courts, in denial of facts crucifying Mr.
Raimondo as a pro se for bringing politically
incorrect claims, facts with evidence supports
against them, not one attorney of as officers of
court fact checked before attacking the complaint.
This Court was passed from the lower court a
Taxation Case as a byproduct from an unresolved
complaint reaching back to 2001 that was brought
to the Court then dismissed on Summary
Judgments. This Court will not find if any, no
mention by the lower Court this complaint was
filed on the claim of a taxation dispute over March
3rd 2015. This is Mr. Raimondo’s 4th trip over the
last 20 years to this Court seeking a Wirt of Cert
Petition be granted. The appendix attached shows
a contentious war of laws, and arguments in
pleadings back and forth. Mr. Raimondo as a pro se
got the short end of the stick, while respondents
never addressing any claims made against them
were all dismissed on res judicata.
The Supreme Court has ruled and has reaffirmed
the principle that “justice must satisfy the
appearance of justice, Levine v. United States, 362
U.S. 610, 80 S Ct. 1038 (i960). Citing Offutt v.
United States, 348 U.S. 11, 14, 75, S. Ct. 11, 13
(1954). Taylor v. O’Grady, 888 F.2d 1189 (7th Cir.

8
1989).
There is no appearance of justice for April 6th
1998, and Mr. Raimondo for taxes demanded of me,
and for all those years I paid in good faith, in turn
I’m entitled justice when my Constitutional rights
are violated as are Respondents.
Petitioner comes to the Honorable Court as Mr.
Joseph Raimondo, I am a 65 year old pro se and for
20 years has been before the Courts as a pro se
doing my level best to get the Courts to recognize
the evidence proving a warrant was violated on
April 6th 1998. I was not doing nothing wrong on
April 6th 1998, there was no probable cause, and
there is no reason not to believe, it was another one
of Macomb County’s civil asset forfeiture raids
played out this time, on a law abiding man, gone
bad, everyone involved knew, yet refused to live up
to it, when it was less costly to just cover it up.
For going to authorities, authorities then
destroyed me and the end result. I with my wife
found our-selves homeless with two young sons
witnessing our home and properties extorted by
government for government usage with Judge
Hood witnessed it, yet refusing to stop it!
That extortion process and that non-stop
retaliation for going to the Federal Court, for airing
Macomb County’s Corruption on the record, turned
into a death sentence judgment in Judge Hood’s
Court. I’m here to have completed or reversed by
this Court Judge Hood’s Judgment. I as a pro se

9
got the hell beat out of me before Judge Hood’s
Court, and she refused to stop those beatings.
Respondent Hood allowed for Macomb County’s
organized corruption to enter her Court and play
itself out, right in her own Court, and even with all
the pleading Mr. Raimondo made to make it stop,
she refused! She even allowed a 42 year prison
attempt prosecution to go on Prosecuted by
Macomb County against Plaintiff as a federal
plaintiff to silence me claiming she had no
jurisdiction to stop it in 2004!
As a family doing nothing wrong, We lost
everything from our properties, to our dreams, onto
our futures. Then trying to challenge the Hood
Court before the other Courts, Those Courts vilified
me, making this look like an unwarranted, mean
spirited, merit-ness attack against the Honorable,
Denise Page Hood, viewed as an African American
Women who struggled through racism all her life,
and any claims were meritless farfetched and
unbelievable fairy-tails. Her lifelong struggles,
measured by her achievements, granted her
“amnesty” without any form of review into Mr.
Raimondo’s facts and evidence against her.
Attorney Ray has asked the Court on behalf of
the United States Justice Department to make this
stop! Appendix p77A Statement of the Federal
Judge Defendants Regarding Proposed Default
Judgement app p88a & p89a quoted as the
Department of Justice presented defenses of facts
without any formal pre-reviewed into this federal
civil litigation legal process stating.

10
1 In this case, the allegations against Judge Hood
have been definitively deemed to be frivolous,
devoid of any merit, and utterly
implausible. At least as to Judge Hood,
Raimondo should be unequivocally told to stop.
“Make this stop” the department of justice
pleaded! Had private citizens committed these
horrific horrifying acts against us as a family and
broke our ecosystem. As bad as it would have been
for me to have accepted it; I would have picked up
the broken glass and moved on. But Government
did this to me, and my family, and the Courts
expected me to just accept what comes my way,
life’s not far, and simply move on when its
Government’s employees doing it then have me
shackled within their monopoly of Social Justice
without means to appeal my way out of. Our life’s
are a mess, they have been since, April 6th 1998.
So today, I’m the Huckleberry before the Court,
showing how Respondents, with their team of
Attorney’s use Social Justice as a weapon of policy
to deprive! my Constitutional civil liberties, doing
so because I’m an Evangelical Christian,
Conservative, and a
Republican. This Court
should not allow Social Justice policy as
Respondent D.N.C. advocates it to be the compass
of the Courts for deciding Constitutional civil rights
laws. Respondents are eroding our Rule of Law.
Color or Sex, makes no difference to Respondents.
All one need’s to do today is be “affiliated” with any
of
the
three,
Evangelical
Christian’s,
Conservative’s, or Republican’s to become a target
of Social Justice and Petitioner is of all three,

11
defending myself as a pro se against the lawless
that
can’t
understand
they’re
violating
Constitutional Laws
Complaint Case NO. 2A7-cv-04254-NKL was
signed as a Verified Complaint on 1/22/2018. It is
Mr. Raimondo’s last will and testament of my facts
sworn before God to be nothing but the truth so
help me God presented to this Court. I am willing
to give my life for these facts before I Pay the
Respondent United State 1 thin penny in demands
for taxation. So this Court body must make a choice
as the Country’s most “Highest Court, and Worlds
Most Respected Court.” This Court is either going
to speck unanimously as the High Court and up
hold my civil rights as an Evangelical Christian
Conservative Republican, or you’re going to put me
to death over those taxes and send me to my God.
Argument
Respondent’s over the last 21 years monopolized
the Courts through their Social Justice Policy
which deprived Mr. Raimondo of my day in Court
before a jury of my peers that allow a jury to have a
voice in this case. A jury must decide whether we as
a Society will accept, law enforcement don’t have to
comply with warrant commands from courts when
taking our private properties. A jury must judge if
law enforcement may retaliate on us for going to
higher authority. A jury must have say if we accept
government taking our real estate properties for
their usage without compensation. A jury must
judge facts and evidence when extortion of our

12
property is arranged, and if courts can silence we as
citizens with threats of thousands of dollars in
fines, and unjust taxation for challenging it. A jury
must have a say whether Judges can inform
citizens, the only thing important to our courts, is
we pay our taxation as citizens.
Respondent, Chiechi demanded taxation and
squashed defense with excessive fines on March 3rd
2015 which brought on the 2017 taxation complaint
suit. That suit was mainly dismissed on, July 25th
2018 without one formal hearing, is based on res
judicata.
This High Court is now being asked to decide
a Question effecting the nation as a whole.
Can the United States federal Government demand
from signaled out citizens taxation and then
deprive signaled out citizens, Constitutional equal
protections because the citizens are Evangelical
Christians, Conservative’s or Republicans?
The answer is an easy No.
There’re two impacting dates here. One is
March 3rd 2015, Respondent, Chiechi held tax
court, demanding taxation announcing her intent
to give excessive fines, totaling $69,000 for a $3,800
tax being protested. Ordered to paid taxes, fines
and penalties, order was respected as an order,
paid in full & under; Flora v. United States 246
F.2d 929 (1957) Case No. 5502; (Tenth Circuit)
Flora v. United States 357 U.S.63 (1958) No. 492

13
(U.S. Supreme Court) Flora v. United States 362
U.S. 145 (1960) No. 492 (U.S. Supreme Court)
Petitioner can sue contesting that imposition for
that taxation.
The other date is, April 6th 1998, a warrant was
violated; those violations led to the destruction of
life as the Raimondo family once knew it. Those
violations have been covered up for 20 years, and
Respondent, Chiechi gave a knowing furtherance to
an ongoing conspiracy to the cover-up facts.
March
3rd
brought
a
much
larger
Constitutional picture into the tax court then
Respondent, Chiechi wished exposed on her Courts
record.
Respondent, Chiechi proved she was educated
and read about April 6th 1998 and Judge Hood, and
made the choice to squash it all together matter
altogether as the senior federal tax judge, traveling
from Washington D.C. to pick pockets and take
$69,000 from a poor citizen, and his family that
already lost everything we had as a result of April
6th 1998 and Judge Hood’s failure to up hold law.
Respondent Chiechi would have completed the
mission had I opened my mouth.
Petitioners Tax dispute is not rebellion against
taxation. Petitioner believes strongly in taxation,
that’s how government gets its abilities to provide
service which provides protection for all citizens.
Mr. Raimondo’s reasoning, is government can’t
take that taxation then rebel against

14
Constitutional Protections in properties, or in
liberties because the citizen is an Evangelical Born
Again in my Faith Christian, or Conservative, or be
a Republican.
Employees over Government as citizens can-not
demand taxation then deny equal protection and
due process under the laws they are protected
under themselves under the Constitution. Yet
under Social Justice they can!
Case NO. 2G7-cv04254-NKL was erroneously
dismissed on Respondents presented defenses for
res judicata. Yet the events of 2015 are a byproduct
of a monopoly Respondent hold on the Courts, and
this Taxation issue and their monopoly prevents
Mr. Raimondo from living a normal life having the
abilities to share in on the American Dream, and
res judicata as a defense is erroneous in this case.
In Lawlor v. National Screen Services Corp., 349
U.S. 322 (1955), The United States Court
unanimously reversed the application of res
judicata where the lower court applied the same
reasoning as the district court applied here.
REASONING WITH FACT
A citizen, subjected to a search warrant by law
enforcement acting under the color of law for the
purpose of seizing private properties under, 18
U.S.C. 981 civil asset forfeitures is Constitutionally
protected in their private properties under the 4th
Amendment as well as under the 8th Amendment

15
Taking Clause. When the citizen faces properties
seizure and the properties are forfeited without
notice served to defend before the Court for the
return of the properties, it becomes an issue of law
and the Courts are called upon to address the law
and the violations.
[W]hen warrants under law become unlawful
seizures of private properties. [T]he citizens facing
this situation is simultaneously in need of the most
careful and exacting adherence to rigorous legal
standards that safeguards his constitutional rights
and among the least likely to receive them in 2001
or more so in 2019 was Petitioner Joseph Raimondo
(“Mr. Raimondo” or “Petitioner”). A White pro se,
an
Evangelical
Born
Again
Christian,
Conservative, Republican, (“does this Court
remember us in 2019”) without a past criminal
history, with no driving record coming before the
Court in his prime of life pleading to have his civil
rights up held before a clearly known Federal
Judge, (“Respondent Hood”) with a family history
running deep in politics of the Democrat party, and
as the Hood family is known for! strong advocators
for Social Justice with family going on local cable
T/V political channels promoting Respondent
DNC’s political politics.
Political politics had no place in the house of law
& justice when Respondent Hood was to be doing
her level best insuring, equal justice is served to all
those that come before their Courts being in need of
such justice.

16
Respondent, Hood was incapable of serving equal
justice, equally and fairly in an impartial manner
in her court do to her political beliefs; “Social
Justice” justifies April 6th 1998 as she titled April
6th 1998 as unfortunate circumstances, not
Constitutional Violations. Therefore, Respondent
Hood failed to serve justice equally and fairly, and
justified it through Social Justice Policy which
sanctioned the U.S. Constitution and Statute Laws!
and by doing so removed her from Immunity
Protections while acting outside her jurisdiction for
substituting the U.S. Constitution with
Respondent D.N.C Social Justice policy used to
target mainly the Whites who are Evangelical
Christian’s, Conservative’s, and Republican’s.
Respondent Hood knew the warrant was
violated, she’s a scholar of civil rights law, under
Social Justice, those laws don’t not apply to citizens
like Mr. Raimondo.
Authorities to Invalidate for Fraud upon the Court
and Failure to Disqualify
People v Zajic, 88ill.APP.3d 477,410 N.E.2d626
(1980). A Federal Judge is a federal judicial officer,
paid by the federal government to act impartially
and lawfully. Litekly v. U.S., 114 S.Ct.1147, 1162
(1994). Liljeberg v. Health Services Acquisition
Corp., 486 U.S. 847, 108 S. Ct. 2194 (1988) United
States v Balistrieri, 779F.2d 1191 (7th Cir.
1985),Code, 28 U.S.C. sec 455(a), Taylor v.
O’Grady, 888 E.2d 1189 (7th Cir. 1989) In Pfizer

17
Inc. v Lord, 456 F.2d 532 (8th Cir. 1972), Levine v.
United States, 362 U.S. 610, 80 S Ct. 1038 (i960).
Citing Offutt v. United States, 348 U.S. 11, 14, 75,
S. Ct. 11, 13 (1954). Taylor v. O’Grady, 888 F.2d
1189 (7th Cir. 1989).
Authorities why Respondent Hood had to of
disqualify herself, and United States v. Sciuto,
521 F.2d 842, 845 (7th Cir. 1996) clearly brings
forth, Petitioner had right to a tribunal, free from
political bias or prejudice based, on the Due Process
Clause.
Under the People of the State of Illinois v. Fred E.
Sterling, 357III. 354; 192 N.E. 229 (1934) Allen F.
Moore v Stanley f. Sievers, 336 III. 316: 168 N.E.
259 (1929) In Village of Willowbrook, 37 III.App.2d
393 (1962) Dunhm v. Dunham, 57 III.App. 457
(1894), affirmed 162 III. 589 (1896: Skelly Oil Co. v.
Universal oil Products Co., 338 III.App. 79, 86
N.E.2d 875, 883-4 (1949) Thomas Stasel v. The
American Home Security Corporation, 392 III. 350;
199 N.E. 798 (1935).
Respondent Hood’s Fraud upon the Court voids
all judgments orders to date for the reason.
Defenses rely on Fraud on the Court and the
United States Government by law must return, the
Raimondo family our properties known as 74555
Fulton Armada, MI. 48005. That taking was a
byproduct of a poisonous unlawful civil asset
forfeiture show above to of been in violation of due
process.

18
Mr. Raimondo had a Constitutional 14th
amendment right to an impartial judicial process
entering the court arena as a pro se, Evangelical
Christian, Conservative, Republican. United States
v. Sciuto, 521 F.2d 842, 845 (7th Cir. 1996).
Respondent Hood as [T]he original court in
2001 felt differently and made it known in opinion
orders, the Plaintiffs before the court were
Evangelical Christian, Conservative, Republicans,
it was not called for: No facts from Mr. Raimondo
were cited about the case so clear.... In Respondent
Hood’s “CONCLUSION” of the courts delivered in;
Raimondo v. Vill. of Armada et al. No. 2:01-cv71353‘DT (E.D) Mich. 2001; Raimondo v. Vill. of
Armada et al. No. 2:02-cv- 71696-DT (E.D) Mich.
2002: notes verbatim: [T]hat Plaintiffs (“Mr. &
Mrs. Raimondo”) are acting pro se and have done a
fine job in representing themselves through their
oral presentations in open court and in their
papers, Inasmuch as plaintiffs “believe there is a
conspiracy against them resulting in the
“unfortunate circumstances” they have gone
through, the Court notes that the law provides
precise definition of claims set forth in the Court’s
analysis, and for reason set forth above, Plaintiffs
have failed to show such violations by the above
noted defendants.
Reasoning for Returning to the Court
A.

Factual MARCH 3“> 2015 COURT ROOM

19
History
Case No. 2U7-cv-04254-NKL ripened in 2014
when Respondents of the IRS sent formal notice
$44,000 was owed for the tax year 2011. Petitioner
reasoning with the Respondent IRS, was
impossible. An appeal was filed. Petitioner’s choice
was to take the case to a Missouri Court to argue,
and that process began. [I]n Dec. of 2014, once
Petitioners facts, and respondent IRS Stipulation
of facts were being exchanged; Respondent Chiechi
sent formal notice by U.S. Mail informing
Petitioner! if presented at the March 3rd 2015 trial
any part of my defense I did not owe the IRS
$44,000, I’d be fined $25,000, with the IRS being
awarded demand of $44,000; “or about”. Stipulated
Fact placed in print by Respondent Chiechi.
On March 3rd 2015, Traveling U.S. Tax Judge
Chiechi, from Washington DC came to K/C/ Mo.
doing the business of Respondent United States.
Petitioner likewise traveled from the state of Mi. to
the state of Mo. prepared as a pro se to represent
my merited defense why I did not owe Respondent,
IRS $44,000. Respondent Chiechi denied Mr.
Raimondo in open Court the right to present
defense unless, Mr. Raimondo was willing to take
the $25,000 fine, informed, the judgment of $44,000
would be granted to Respondent IRS. Mr.
Raimondo was forced to forego presenting defense,
paid the imposition of a taxation demand, paid all
assess fines, all penalties, paying it in full.
On the March 3rd 2015 Respondent Chiechi’s

20
build up for each case was to call them up one at a
time, lay out her ground rules how trial would be
conducted, informing the parties in the case, what
she would, and would not allow presented, or
argued. Petitioner’s case was called up % of the way
through the morning retrial process allowing Mr.
Raimondo to witness, Respondent Chiechi court
process.
Senior Judge Chiechi used careful direct
language informing Petitioner. “She did not care
what the District Courts failed to do for me,” “nor,
cared about what law enforcement did to Mr.
Raimondo”!
With those known claims made in open court, that
lets this Court know, Respondent Chiechi
understood the case history of this case. It is
reasonable to believe, Senior Judge Chiechi came
informed as a Judge recognizing the argument of
defense was a politically incorrect defense before
the court, and a subject matter over taxation
without Federal Representation was not going to
tolerated presented by any, Evangelical Christian
Conservative Republican citizen....
Petitioner, never spoken a word to Senior Judge
Chiechi. Mr. Raimondo simply came forward and
stood before her bench having Respondent Chiechi
opened up on Mr. Raimondo letting me have both
barrows from her tax Court. Respondent Chiechi
made it very clear in open Court on the record, the
only thing she cared about was, “I was going to pay
my taxes” making it clear, anything about civil

21
rights were irrelevant factors before her tax Court
when it comes to Taxation v Constitutional rights.
Senior Judge Chiechi, again warned in open
court 3 times her written threat from her Dec. 2014
notice of the fine and judgment totaling $69,000 or
about, if there was anything I did not understand
about what was about to happen to me if I
presented my defense, why I did not owe
Respondent IRS, stipulation of fact, Mr. Raimondo
owed, $44,000 for the tax year 2011.
Ripening the complaint, Petitioner witnessed as
stated in the lawsuit Case No. 2:i7-cv-04254-NKL,
and as produced in Appendix 2-E p 232a in Count 9
produced on p 234a of the verified complaint seen
in 12. An 13 paragraphs of the Count, Respondent,
Chiechi fined one man $4500 or about for simply
answering her question, whether he was
challenging the law. For his response, maybe the
law needed to be challenged. Respondent, Chiechi
slapped the man with both a judgment and fine,
then threw the man out of the Court. All this taking
place before, IRS attorneys, court recorder, and
court staff, before a court room full of terrorized
citizens waiting their turn to stand before the
theatrics of a psychopath maniac terrorizing those
before the Court.
Accordingly under Special Functions of a Trial
Judge Standard 6-1.4. Appearance and demeanor,
and statements should reflect the dignity of the
judicial office and enhance public confidence in the
administration of justice. The wearing of the

22
judicial rode in courtroom will contribute to these
goals.
With shock and awe witnessing what I was
seeing and hearing from a senior tax judge from
Washington D.C. I figure it was best to keep my
mouth glued shut. March 3rd 2015 did not appear to
me to be the day, nor the right Court, I was willing
to fall on the sword before, having my frail wife 750
miles from home witnessing it. Today’s a new day.
This is the Court I’m willing die before for my
rights before I pay Senior Judge Chiechi one more
penny in taxes.
Petitioners tax returns that were with me
showed, I only owed in the figure of or about
$3,800.00 dollars which respondent IRS gladly
accepted. The IRS attorney, Mr. Wilson on behalf of
the Respondent IRS appeared very eager to get this
taxation matter away from Respondent, Cheichi. In
fact, Mr. Wilson was clearly showing signs he was
quit shaken and made it very clear to petitioner he
had never seen anything like this from a tax judge
before.
When the trials started after the lunch break,
Petitioners case was the very first case called for
trial. It was at that time the IRS Attorney
announced to the court that a settlement had been
reached. Respondent, Cheichi expressed great
anger with Mr. Wilson for settling that case based
upon Petitioners tax return and made demands
and gave one week for the paper work to be
completed and before her or t she was not accepting

23
the settlement.
But it was the IRS’s demand letter that then
followed thereafter in Dec. of 2015 very shortly
following the United States Supreme Court refusal
to take up my 3rd Petition for review did the IRS
send notice giving Petitioner 30 days to gather up
all tax years from 2008 to the current year and
demanded, I file them and make arrangement to
pay all those taxes, plus all fines and penalties in
30 days.
Again trying to reason with the employees of the
IRS was like reasoning with Respondent Hood to
see the warrant shown in the Appendix Z
appl61a was violated, It was never going to happen
without this Court Supervisory Power.
But had Respondent, Cheichi got her way,
Petitioner already had plans to take my wife back
to Mi. grab my Marine Corp Dress Blues, drive thr
rental car to Washington D.C. and burn my body
live on YouTube on this Courts door steps in
political protest as to what the Courts allowed
Respondents to do to me, and to my family since
April 6th 1998, by putting us through this living
hell with no appeal out of.
Petitioners Certiorari is indeed like none other
probably presented before drafted by a pro se. We
as a nation are in the midst of troubling times in a
time when Social Justice is being weaponized as a
political sanction weapon against the United States
Constitution and this Certiorari is an ensample of

24
how out of control things have gotten when this
case started as a simple Warrant Violation
Respondent Hood refused to address, let alone
correct..

ARGUMENT: FRAUD ON THE COURT
Respondents Meyerand and Lt. Baumgarten
falsified dates, times and places addressing
directly, April 7th 1998. Produced in Appendix W
144a is the sworn affidavit from Respondent
Baumgarten. Appendix Y 149a is Respondent
Meyerand signed motion to dismiss or for summary
judgement. Respondent Hood based her Summary
Judgments based upon these two signed documents
present to the Court with known Fraud on the
Court, is was shown to Judge Hood and the Fraud
was resisted and discredited because of the favored
treatment she granted to the defendants as
government before her Court.
Appendix W pl44a from Baumgarten: I took
possession of twenty-four (24) titles from Michigan,
Ohio, Indiana, Oklahoma and Missouri, the real
count was 25 titles. 1. Respondent Baumgarten
never makes claim he provided the tabulation list
which supports he failed to follow commands. 2nd
Petitioners claimed I was engaged in and interstate
business Hood rejected as fact. 3rd Those 25 titles,
titles included the state of, Missouri. 4th
Baumgarten claims those titles where not signed or
transferred in Petitioners name yet. Makes no
claim I was a business with the right to own those
cars and have those titles. 5th Bumgarten claimed

25
“I assisted Detective Kline” who was an office
assigned to Baumgarten as Lt. over the officers
under his command, yet Baumgarten makes known
he himself took those titles. 6th Buamgarten
claimed, Mr. Raimondo was Informed that he
would not be charged with the crime of not
transferring the titles, but that he would be
required to transfer the titles as required by
Michigan law. R.Q.N. There was no crime, it’s a
standard $15 added late fee. 7th Baumgarten claim
is he informed Mr. Raimondo he was to meet him at
the Secretary of State in Richmond, Mi. on April 7,
1998, at 9^00 a.m. 8th Baumgarten’s claim is. On
April 13, 1998, “I received a call from the Bureau of
Automotive Regulations to pick up the titles left at
the Richmond Secretary of State due to Mr.
9th
Raimondo's failure to transfer the titles”.
Baumgarten the further claims, Due to Mr.
Raimondo's failure to transfer the titles in a timely
fashion, I again contacted the Bureau of
Automotive Regulations and was told to return the
titles to the states of origin.
Baumgarten has shown, a raid was conducted
searching for a chop shop officer Kline and
Buamgarten accused me of operating on April 6th
1998 on the work of his informant that allowed
probable cause once a drive by view was conducted
by officer Kline see many old classic cars have great
value. There is no claim a crime was found, yet
titles were seized and there was no tabulation list
provided when they were unsigned titles. That
opened Baumgarten’s criminal mind with
opportunities up to selling those titles with his

26
informant partner who also collected old Chrysler
Muscle Cars who knew, Mr. Raimondo owned a
gold mind for their taking through civil assert
forfeiture law the tow used regularly to take
private properties and sell them at their place of
business holding police auctions. That scam was
real in 1998 and the evidence supporting it was
presented to Hood proving what Baumgarten was
doing and it was thrown in the trash were
everything less Mr. Raimondo presented ended up.
Now if what Baumgarten swore to was the truth,
which investigation proved it to be a lie in his
Affidavit. It was impossible to meet him on Aril 7th
1998 at 9^am because supported by eye witness
account, of Mr. Steven Hazard officer, Kline was at
my house on the morning of April 7th 1998 at 9^00
am returning a title to a 1969 Ply. Roadrunner on. I
was to meet Baumgarten on April 8th 1998 at 9;00
am.
It is paragraph of Appendix W 144a in 7,8,9,10,
and 11 incriminates Baumgarten. Petition was told
on April 6th by Lt. Baumgarten I was to meet him
on the morning of April 8 1998 at 9 am. These are
the facts Respondent hood conclude as not so based
upon Baumgartens affidavit.
What Buamgarten claim he was called on April
13, 1998 by the State of Mi. and told to go pick up
my titles? Then claim he place a call and was told to
send the titles back to the state of origin.

27
Mr. Steven Hazard was present and signed a
sworn affidavit presented to Judge Hood, that is
nowhere found anywhere on the Court Docket that
supports Mr. Raimondo’s testimony officer Kline
was at my house on the morning of April 7th 1998
returning a title to a 1969 Ply. Roadrunner. Hood
personally requested that affidavit be given to her.
This Court has on it 9 of the most brilliant
Scholars of the law in our vast nation. It is not
conceivable Petitioner failed to appear at a time
and place when I was meeting with another officer
of the law that directly was involved with
Respondent Baumgarten setting the date I was to
meet with Respondent Baumgarten on April 8th
1998. It is physically and human-ley impossible
Petitioner could have met with two different law
enforcement officers assigned to the same case
matter, and been in places 10 miles or so apart
from one another at or in the very same time lines.
Someone is lying in this case and has been lying to
court with the court, and it’s not Petitioner telling
lies, so it’s got to be Respondents, dismissed on res
judicata. It does not make logical sense, A law
abiding man would file his own capital petitions
asking for death, refusing to pay income tax, taking
this form of a legal stand before the Courts if the
man was the one lying to the court.
Being 9 of the most brilliant Scholars of the
law in our vast nation, it is impossible not to see
from Appendix W 144a and from Appendix Y 149a
that warrant was violated and both Baumgarten
and Meyerand signed papers presented to the Hood

28
court presented under known Fraud on the Court
to cover up the warrant Violation and Appendix Y
149a as Respondent Meyerand signed motion to
dismiss or for summary judgement justified was
Baumgarten did because Mr. Raimondo failed to
meet Baumgarten on a date the two pull from thin
air that don’t stick to the facts of this case..
Appl54a thru appl59a is Mereyands defense for
Baumgarten making claim from his Exhibit 8 and
Exhibit 9, p. 240). Produced in Appendix W found
from pl49a thru pl59a produced on App pl55a. It
is undisputed that Mr. Raimondo pl56a failed to
appear at the Secretary of State's office at the
designated
time, and the Defendant, Lt
Baumgarten, left the titles with the Secretary of
State for the Plaintiff to transfer same. According
to the Plaintiffs testimony, instead of transferring
the titles, he proceeded to the Macomb County
Sheriffs Department to complain about Lt.
Baumgarten (Exhibit 9, p.240
Argument
I did travel to the Sheriffs department and
talked to Caption Rick Kalm, Caption over
Baumgarten and that took place on the morning of
April 8th 1998 once I left the Secretary of State
finding Buamgarten had just left and dropped the
titles off with Angie and Angie informed
Baumgarten just left. I asked Angie if I could
return on Monday Morning and transfer the titles
informing her I needed to raise the money and it
was confirmed this was not a problem. I then let

29
and then travel to the Sheriffs Department.
Caption Kalm wanted me to file a complaint
against Baumgraten but I explained I wanted no
trouble. On April 13th when I returned to transfer
the titles Angie informed me Baumgarten had
again just let and request back all my titles and I
was to call him. I then called and Buamgarten
informed me that I should not have gone to his boss
and that he was going to get my ass and then hung
up.
Mr. Raimondo never saw those titles again. A
meeting was arranged with Sheriff William Hackle
Rick Kalm and Bumgarten and at that meeting
Baumgarten was given a direct order to return
those titles. Following that Buamgarten still
refused to return the titles. Soon Mr. Raimondo
learn Baumgarten had a warrant out for my arrest
and at that trial had officer claim I was operating
collision business without a current lie. That trial
was then conducted in Aug. 4/1998 at 1B20 am in
the 42*1 District Court before Judge Richard D.
Mclean. From April 6th 1998 till Aug. 4/98 it was
believed Baumgarten had those titles personal
refusing to allow me the return of my property. It
was at that trial Baumgartem was heading out the
door when I asked him again, when am I getting
my titles back. Baumgartem then informed me he
no longer has informing me he was called and told
to send my titles back to the state of origin.
Through investigation it was learned thru Tina
Dunsmore from the Bureau of Automotive
Regulation and informed me Baumgarten called
her for advice as to what to do with titles he had in

30
his filing cabinet and he had no cars to match with
the titles.
When William Hackel learned of what
Baumgarten did on his own, the Sheriffs
Department and the Prosecutors office went into
damage control and by the end of 1998,
Buamgarten was forced into retirement and the
cover-up over what Baungarten did and caused
moved to a county cover-up.
On or about April 13, 1998, Lt. Baumgarten
received a telephone call from the Bureau of
Automotive Regulations advising him to pick up
the titles left at the Richmond Secretary of State
due to the fact that Mr. Raimondo had still failed to
transfer the titles (Exhibit 8, Paragraph 9). After
the Plaintiffs failure to transfer the titles in a
timely fashion. Baumgarten again contacted the
Bureau of Automotive Regulations, and was told to
return the titles to the states of origin.
Accordingly, the Lieutenant returned the titles to
the states of origin (Exhibit 8, Paragraph 10 & 11).
The fact that the Plaintiff failed to transfer the
titles in a timely fashion is confirmed by the
Plaintiffs testimony during his deposition on June
21, 2002 wherein the Plaintiff was asked why he
waited almost two months to contact Lt
Baumgarten to transfer his titles. Of course, the
Plaintiff can provide no reasonable explanation for
the delay, but instead, chooses to blame Lt.
Baumgarten for his woes. (Exhibit 9, p. 240,241).
As the Court can see, the Plaintiff testified that he

31
failed to meet Lt. Baumgarten at the
pl57aSecretary of State offices on April 7th and he
failed to transfer the titles on that date based upon
the Plaintiffs Verified Complaint and testimony, he
was told by the Secretary of State that Lt.
Baumgarten had picked up the titles on April 13th
Most Importantly, the
Plaintiffs Verified
Complaint and testimony confirms that he_waited
until the end of May to re contacted Lt.
Baumgarten regarding his titles. It would appear
undisputed, therefore, that the Plaintiff failed to
timely transfer his titles and Lt. Baumgarten was
Justified in returning the titles back to the states of
origin.
When I did get to file TR54 applications to filed
then for duplicate titles under, Mi. Law, under the
direction of Baumgarten, Baumgarten had me the
red flagged through Vehicle Enforcement and they
then took taking months to return a duplicate that
was subject to those who had the originals. No state
from investigation including Mi. Buamgarten
claims he took title of that origin had any record of
ever receiving those titles.
Those titles were proof of ownership to very
valuable Classic Cars. Everything Mr. and Mrs.
Raimondo was given for collateral to travel and
collect those cars for a business venture that was
months away from opening on the Morning of April
6th 1998.
In final on the Warrant, once that warrant was
violated and the fruits from that poisonous warrant

32
took off and the cover-up grew. Everything that fell
upon the Raimondo family is a direct byproduct of
that violated warrant and really there is nothing
that should be needed said to Grant this Wirt of
Cert.
Argument on Conspiracy
Precedence set in the United States Supreme Court
in, United States v Price United States v Price (383
U.S. 787) 1966, it is a felony under federal Statute
law, 18 U.S.C. 371, 18 U.S.C. 242, & 18 U.S.C. 241;
to conspire to interfere with a citizens guaranteed
Due Process rights under the Clause of the
Fourteenth Amendment.
United States v.
Williams, 341 U.S. 70, 72. 2 [383 U.S. 787, 790].
Under a conspiracy law, even the DOJ defense
ascertained an erroneous conclusion,
Mr.
Raimondo is making claim that the Judges were
even involved in April 6th 1998. Petitioner never
alleged the U.S. Respondents were remotely even
involved in April 6th 1998, the U.S. Respondents in
fact did not know about April 6th 1998 until it was
brought to respondents attention as the litigation
grew in size.
The elements of a civil conspiracy are: \ There
are two or more persons involved. 2 The
Defendants have an unlawful objective. 3 The
defendants come to an agreement on the objective
or means to achieve the objective. 4 The defendants
commit one or more overt acts in furtherance of the
conspiracy. 5 The defendants’ actions result in
causing an injury or damages to the plaintiff.

33
[T]he specific intent requirement does not require
that each individual knows all the details of the
crime or all members of the conspiracy. As long as
an individual understands that the act being
planned is a criminal one and proceeds
nonetheless, he can be charged with conspiracy.
Respondents and at times the Courts are making
claims Mr. Raimondo is claiming every named
respondent was at my home on April 6th 1998 and
engaged in the raid and the properties seizures.
That is erroneous designed to prejudice Mr.
Raimondo and make me out to be some nut case
looking for someone to blame for troubles I caused.
Every respondent named came into this case at
different times and did a part while acting under
the color of law to directly impede the judicial
process of the Courts from working as designed and
the goal was for a common cause designed to
deprive civil rights and knowing or not worked to
cover-up April 6th 1998.
Judicial Procedure of Case No. 2-17-cv04254.
Raimondo v Hood et al.
This Court will find the District Court
conducted no case hearings, and discovery was
denied and the case dismissed on the defense of res
judicata prior to a default Motion having to be filed
to bring the Respondent Judges to the table to
defend the Default Motion. Had the Default Motion
not been filed by Mr. Raimondo, this case would
still lie on the docket of the District Court because
the District Court was not doing anything to make

34
any Respondent comply with good faith effort in the
judicial process.
This Court will find as well, the 8th Circuit Court
of Appeals Appendix: C: Notice letter for the United
State Court of Appeals for the 8th Circuit; No
briefing schedule will be established, and no
additional pleadings are required from you:
09/18/18 did not allow Mr. Raimondo to defend not
one order the District Court handed down.
Now I am to defend these orders an what’s
presented in the attached Appendix eating up my
word limits set by this Court in a case such as this.
The record speck’s for its self in the appendix and I
will use my word limit as a pro se respecting the
Court rule
REASON FOR GRANTING THE PETITION
I.
THIS COURT NEEDS TO CLAIRFY
STANDARDS PRO SE PARTIES BEFORE THE
COURT ARE TO BE HELD BY WHEN COURTS
ARE TO LIBERALLY CONSTRUED PRO SE
COMPLAINTS,
THE
WORDING
IS
AMBIGUOUS THAT GIVES NO DIRECTION
THE COURTS MUST ADHERE TO THE U.S.
CONSTITUTION.
Background!
In this case as a pro se, Petitioner originally
brought before the Court in 2001 a civil complaint

35
law
6,
1998,
alleging that On April
enforcement officers from the Macomb County
Sherriff s Department, Clinton Township, and the
Village of Armada conducted a raid on Plaintiff
Joseph Raimondo's property to investigate
allegations that he was operating an illegal
"chop shop." Although the officers obtained a
warrant, Plaintiff alleges that the officers violated
the warranty The facts are found in Plaintiffs
Amended Complaint, Doc. 6, of the district court
civil docket.
For 20 years, the Courts have managed to evade
the warrant as being violated altogether. 20 years
and the Courts have failed to liberally construed
anything this Petitioner has presented to the Court
other than the fact, “Mr. Raimondo is an
Evangelical Born Again Christian Conservative
Republican” and that was easy, and useful to use
against Mr. Raimondo as a Pro se using Social
Justice over the U.S. Constitution.
Pro se parties are the most discriminated class of
citizen that come before the Court when we have
been violated by our government. The government
targets the poor because most times the poor if
you’re the right poor citizen, government knowns
the Court are not going to take the pro se seriously
because we are by a rule, poor citizens from an
underclass group of Americans. Lower Court know
the appeals courts would go against the lower
court, and the appeals courts know this Court wont
address their erroneous mistakes. So where does
that leave a pro se? in Mr. Raimondo’s shoes

36
Mr. Raimondo’s only recourse is doing what I am
doing in this Writ of Cert. Pleading my factual case
of erroneous mistakes willing to give this Court my
life as a result of the rejection the Courts express
against truth, facts, and evidence in support of my
Complaint.
II.
THIS COURT NEEDS TO CLAIRFY
STANDARDS OF Justice Black in Conley v Gibson,
355 U.S. 41 AT 48 (1957) “The Federal Rules reject
the approach that pleadings are a game of skill in
which one misstep by counsel may be decisive to
the outcome and accept the principle that the
purpose of pleading is to facilitate a proper decision
on the merits.”
Respondents in this case have been playing
with Mr. Raimondo while the case history right up
into
Complaint Case NO. 2:l7-cv-04254-NKL,
routinely and systematically violate F.R.C.P. Rule
11, and when discovered get away with it as if it is
the way the Court do business. This Court must
remember Mr. Raimondo is a pro se that observes
while the courts are turning the house of justice
into a game of skills that brings into the court;
dishonesty and corruption. That’s exactly what the
case has been turned into, a game of skill mastered
by officers of the court beating the hell out of one
small bodied pro se for simply trying to show this
Court a warrant was violated and the byproducts
from those violation destroyed a law abiding family
unit.

37
III. THIS COURT SHOULD CLAIRFY WHETHER
RES JUDICATA AS IT’S RELIED UPON IN
DISMISSING CASE NO. 2:i7-cv-04254-NKL
COURTS
THIS
CONFLICTS
WITH
UNANIMOUSLY RULING IN Lawlor v. National
Screen Services Corp., 349 U.S. 322 (1955),
[T]his Court should grant certiorari to clarify
with an exorcise of this Courts Supervisory power
over the cited case authorities relating to this case
matter, defense resting on res judicata that is
directly shielding to cover for what; Under United
States v Price sets case law precedence on, is a
felony under law when conspiring to interfere with
a citizens guaranteed Due Process rights under the
Clause of the Fourteenth Amendment. United
States v. Williams, 341 U.S. 70, 72. 2 [383 U.S. 787,
790],
The lower courts choice to accept res judicata
when this case brought totally new claims as
byproducts resulting from the continuance and un
going conspiracy with intent to deprive
Constitutional equal protection for the purpose of
covering-up the original claims the res judicata is
resting on is a continuance of a miscarriage of
justice being served and the Courts doing there
level best to serve equal justice to all those that
come before the Courts.
IV.
THIS COURT SHOULD CLAIRFY TO THE
LEGAL STANDARD 11 Charles Alan Wright &
Arthur
R. Miller, Federal
Practice &
Procedure- Civil§ 2865 (3d ed. 2012) ("Relief

38
under Rule 60(b).
The District Court’s Order presented in App. I
addressing reasoning for dismissing District Court
Doc, Motion 44, and Doc. 45 for the return of real
estate property “74555 Fulton Armada Mi. 48005”
based upon the motions argument, the Order of the
Court states in Appendix I the following.
Further,
on the merits,
Rule
60(b )(3)
authorizes only a motion for relief from a final
judgment, not an independent action. 11 Charles
Alan Wright & Arthur R. Miller, Federal Practice &
Procedure: Civil§ 2865 (3d ed. 2012) ("Relief under
Rule 60(b) ordinarily is obtained by motion in the
court that rendered the judgment.").
Mr.
Raimondo has not cited any authority that one
federal district court can vacate an order of another
federal district court because of an alleged fraud
perpetrated on the sister court. Mr. Raimondo's
request for reconsideration on this issue is without
merit.
A.
If Respondent Hood is a defendant before
the Court and has not recognized and wrongs, and
has not responded to the Complaint claims against
her for the Fraud upon the Court, Legal Standard
in, 11 Charles Alan Wright & Arthur R. Miller,
Federal Practice & Procedure: Civil§ 2865 (3d ed.
2012) ("Relief under Rule 60(b) would leave the
original court with the sole discretion as the court
to be the final say of all Courts making it
impossible to invalidate any judgment unless the

39
original Courts fines it’s lost conscience.
The legal standard 11 Charles Alan Wright
B.
& Arthur R. Miller, Federal Practice & ProcedureCivil§ 2865 (3d ed. 2012) ("Relief under Rule 60(b)
as used makes it impossible to invalidate
judgments base upon Fraud upon the Court and
that invalidates case laws!
THIS COURT SHOULD CLAIRFY Tyson
V.
Timbs v State of Indiana Supreme Court
586_1393.CT.682; 20 L ED.2d 11 2019 to Raimondo
v Hood et al., Case No. 2-17-cv- 04254.
Bases upon Tyson Timbs v State of Indiana
Supreme Court 586_1393.CT.682; 203 L ED.2d 11
2019, it clearly addresses what Respondent
Baumgarten and the actors involved did under the
color of law violated the 8th Amendment under the
Excessive Taking Clause and by acting under the
color law with officers of the Court and CoRespondents creates a 42 U.S.C. 1983 Civil Rights
claim for a cause for action for relief.
For in total of 25 fines to the State of Mi. would
have amounted $15.00 each totaling $375.00 which
was not a criminal chargeable offence, Petitioner’s
legal papers as private properties were seized, and
forfeited without notice to defend.
For not signing those titles, Petitioner’s total life’s
worth of achievements and wealth with my real
estate was taken from me, and from my family
which would clearly raise to the level of an

40
excessive fine and taking in violation of the 8th
amendment Taking Clause.
VI THIS COURT SHOULD TO EVALUATE;
Rose Mary Knick v Scott
Township
Pennsylvania Case NO 17-647,588 U.S. 2019 to
Raimondo v Hood et al., Case No. 2G7-CV-04254.
Mr. Raimondo’s family’s home our land, and
private properties were taken through theft and by
extortion. For 20 years, every respondent named
knew of those facts. While only a selected few
engaged in the theft and in the extortion of those
properties. Every respondent name was educated
on that taking of properties yet failed to act in the
official capacity to up hold the Constitution of the
U.S. when civil rights were clearly violated letting
the wrongs mount for 21 yers after April 6th 1998.
The properties were taken for government
usage and for gain without pay as a byproduct from
a warrant that was unequivocally violated on April
6th 1998. Every respondent named did their part to
insure payment for that taking would never
happen, and Respondent Hood’s summary
judgments would never get a review.
VII
This Court should evaluate Curtis Giovanni
Flowers v Mississippi Supreme Court Case NO
17-9572; 2019 Case NO 17-647,588 U.S. 2019 to
Raimondo v Hood et al., Case No. 2G7-cv04254.
The case presented in 2001; 4th amendment
violations that rose to the level of being 5th

41
amendment due process violations, as well as 8th
amendment under the Takings Clause and because
the acts were done under the color of law, it created
a 42 U.S.C. 1983 violations under the law. The
originally court owed Mr. Raimondo’s as pro se,
14th amendment due process, and the Court held
original jurisdiction over the presentation of those
Constitutional violations. United States v. Sciuto,
521 F.2d 842, 845 (7th Cir. 1996). Petitioner had
right to a tribunal, free from bias or prejudice is
based on the Due Process Clause of the 14th
Amendment. Mr. Raimondo’s Pro se pleadings
weren’t to be held to the same high standards of
perfection as practicing lawyers. Haines v Kerner
92 Set 594, also seen in Power 914 F2d 1459 (11th
Cir 1990), also seen in Hulsey v Ownes 63 F3d 354
(5th Cir 1995), also seen in Re^ Hall v Bellmon 935
F.2d 1106 (10th Cir. 1991).” In Puckett v Cox, (456
F2d 233 (1972 6th Cir. USCA). it was held that a
pro-se pleadings requires less stringent reading
than ones drafted by a lawyer.
The Supreme Court has ruled and has
reaffirmed the principle that “justice must satisfy
the appearance of justice, Levine v. United States,
362 U.S. 610, 80 S Ct. 1038 (i960). Citing Offutt v.
United States, 348 U.S. 11, 14, 75, S. Ct. 11, 13
(1954). Taylor v. O’Grady, 888 F.2d 1189 (7th Cir.
1989). [T]he United States v Price under U.S.C. 371
to violate 18 U.S.C. 242 & 18 U.S.C. 241, sets case
law precedence, it is a felony under law to conspire
to interfere with a citizens guaranteed Due Process
rights under the Clause of the Fourteenth

42
Amendment. United States v. Williams, 341 U.S.
70, 72. 2 [383 U.S. 787, 790], [T]he United States
Court from Lawlor v. National Screen Services
Corp., 349 U.S. 322 (1955), unanimously reversed
the application of res judicata where the lower
court applied the same reasoning as the district
court applied here making the lower court’s rulings
conflict with this Courts.
THIS COURT NEEDS TO CLAIRFY
VII.
STANDARDS Ackra Direct Marketing Corp., 86
F.3d at 857, F.R.C.P. for Rule 55 (b) Motion for
Default where decision is left to the "sound
discretion" of the District Court.
F.T.C.
v.
Packers Brand Meats, Inc., 562 F.2d 9, 10 (8th
Cir. 1977).
The Supreme Court has ruled and has reaffirmed
the principle that “justice must satisfy the
appearance of justice, Levine v. United States, 362
U.S. 610, 80 S Ct. 1038 (i960). Citing Offutt v.
United States, 348 U.S. 11, 14, 75, S. Ct. 11, 13
(1954). Taylor v. O’Grady, 888 F.2d 1189 (7th Cir.
1989).
Respondent Judges were properly served,
they performed duties under the color of law, they
failed to respond to the alleged claims made against
them and were 55 days into default. Defendants
were served under F.R.C.P. Rule 55 (b) Motion and
Brief in support for Default in Doc. 47. of the
District Court including Doc. 48 with attached
supporting Exhibits in support under F.R.C.P. Rule
55 (b) with proper argument and evidence to show a

43
default Judgement for Federal Employees that met
the needed standard. The District Court notes the
8th Cir. Court leaves that sound discretion" to the
District Court.
F.T.C.
v.
Packers
Brand
Meats, Inc., 562 F.2d 9, 10 (8th Cir. 1977). Motion
was denied

CONCLUSION

For the foregoing reasons, Petitioner respectfully
requests that the petition for a writ of certiorari be
granted on behalf himself and all others similarly
situated.

JOSEPH RAIMONDO
23443 Prospect
P.O. Box 330
Armada Mi.
586-404-5365
Date: Sept. 9/2019

